IN THE SUPREME COURT OF THE UNITED STATES

October Term 2020
MERWIN SMITH, )
)
Petitioner, ) On Petition for Writ of
) Certiorari to the United
vs. ) States Court of Appeals
) for the Eighth Circuit
UNITED STATES OF AMERICA, )
) Supreme Court Case No.
Respondent. )

PROOF OF SERVICE
STATE OF MISSOURI )
CITY OF ST. LOUIS ;

The undersigned, being duly sworn and upon her oath, states as follows:

1. I am counsel of record for Petitioner;

2. On this 20th day of May, 2021, I served copies of the Petitioner’s
Petition for a Writ of Certiorari plus its Appendix, Motion to Proceed In Forma
Pauperis, Entry of Appearance, Affidavit of Filing, plus this Proof of Service, on
each party to the above proceeding or that party’s counsel, on every other person
required to be served, by depositing an envelope containing copies thereof with a
third-party commercial carrier for delivery within three days to:

Acting Solicitor General Elizabeth Prelogar.
U.S. Department of Justice, Room 5614
950 Pennsylvania Avenue, NW

Washington, DC 20530-0001
(202) 514-2203
and by delivery a copy of those documents by hand to:

Sayler A. Fleming, Acting United States Attorney
For the Eastern District of Missouri

Eagleton Federal Courthouse

111 South Tenth Street, 20" Floor

Saint Louis, MO 63102

I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 20, 2021.
3. Further affiant sayeth not.
Respectfully submitted,
METISSA K. GO
Assistant Federal Public Defender
1010 Market, Suite 200
St. Louis, MO. 63101
(314) 241-1255
Fax: (314) 421-3177

ATTORNEY FOR PETITIONER

SUBSCRIBED AND SWORN TO before me on this D0 day of May 2021.

ADULD SL AO ssa,

NOTARY PUBLIC

My commission expires:

 
